                                                                       LOS At-.'GELES DIG                             PAGE     62/ 02
                                                                                                                           p.2




                                     NATIONAL RAILROAD PASS~Nq~R
                                                                    COlU'O)M1'XON
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF iNVESTIGATIONS
                                           INVESl'lGA'fIVE CLOSING REPOR
                                                                         T
               TITLE:                 Theft• • •
               OA'fEOF REPORl':       ~ ~/
                                                                  CASE NUMBEU: 04·33
               REPORt l'REl'ARED B V :                  ~
                                              - . flSA a n d _ SA
               1. lllNDlNGS OF FACT AND RECO
                                              MMENPAT~
           A. FINDINGS OIl FA!;;l
           1.     :Ouring Lead Service Attendant ("LSA")
                                                                 packet l'evlcws by the Office ofJllspector
                   Office of Investigatiol)s ("01"). it was
                                                                   determined that packets
                  _ , ftlOl lOl' LSI\,
                                                 It.d comaincd uuder ' roported sales amo helonging to
                  processed by TfIlin Provision M~nagemcl                                     unts. The puclkefs
                                                                  lt System ("TPMS") Clerks
                  Implicated in aotivities desilll\P.d to retain                                   who      j)rcviously been
                                                                 Amlrak /\Ulds for pel~oDat gaill.
          2.      01 fouud seven (7) sales packots belongin
                 tot.Illlg $2,533.                         g to _U ta r cout"JJled undor l'Opolto<l
                                                                                                    sales amounts
          3.     OJ reported to tnlUlollemcnt rhat
                                                            hnd
                 charges against TIl.{1mlt on March 1,2004. foiled to renut $2,533. and Amtl'ak Issued adm.ullstrallvo
(                                                                       WQS terminated by AlIltrak on
                                                                                                      March 19, 2004.
      ~.        Amtrak withheld SI,575.61 in vacation pay
                                                               fro m_ 's finnl paycheck.
      5.        OIlAI1gU.r 31, 2005,01 rolOrred            's case to the Ullited States Attorney's Office.
      6.        01\ Juno 1,2006, the United St~tos Atto
                                                        l'lloy's Offico deolined prosecullon o f
                                                                                                      _
     'I.       On October 26,2006, the _S lat e's
                                                            Attorney's Office ae ro pursue ~'ros
               _w ".i nd lct ed by thcCiffiiid.TlIry
                                                       ofthe Circuit Court of_ Co lln ty 011 Octoooutioll 01 '_ .
                                                                                                        bel' 30, 2006,
     8.        On March 19, 2008, _           was oOllvicte
               County and sentenced to one yeru: of cOlldrtof tllcft by n p~uilty in tho Circuit COl llt o f _
                                                            supervision. _     was also orde        l'ed to pay Anl(lak
               restitution io the amolUlt of$500.

     9. _c om ple ted his $500 restilUtir.lll
                                                     to Amtlak 011 August 4, 2009.

    D.,    llliCOMMICN!?A'flQN~

    l. Close cnse.

    Chicf IlIspe<lor'

    Depuly Inspector GCtlo1Il1U'Col~us:ol:._.le
                                                "J,           .~:A-f.-+tu'ntl::..;._..JC:;"'~rL!
                                                                                                   :.~':f--

    Clo.ing Report Q4·33.docL
